TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Higher Than Planned Call Demand
                      Reduced Toll-Free Telephone Access
                           for the 2009 Filing Season



                                       September 8, 2009

                              Reference Number: 2009-40-127




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  September 8, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Higher Than Planned Call Demand Reduced
                                 Toll-Free Telephone Access for the 2009 Filing Season
                                 (Audit # 200940003)

 This report presents the results of our review to evaluate the customer service toll-free telephone
 access during the 2009 Filing Season.1 This audit was included in our Fiscal Year 2009 Annual
 Audit Plan and addresses the major management challenge of Providing Quality Taxpayer
 Service Operations.

 Impact on the Taxpayer
 During the 2009 Filing Season, the Internal Revenue Service (IRS) did not achieve several of its
 key toll-free telephone assistance performance measurement goals. Access to the toll-free
 telephone assistors was lower than planned because of the high volume of telephone calls
 regarding the prior year Adjusted Gross Income, the Recovery Rebate Credit, and the American
 Recovery and Reinvestment Act of 2009.2 In addition, the IRS’ main performance measure for
 the toll-free telephone lines, the Customer Service Representative Level of Service (Level of
 Service), does not adequately reflect total call demand and the taxpayer experience when calling
 its toll-free telephone lines.




 1
     The filing season is the period from January through mid-April when most individual income tax returns are filed.
 2
     Pub. L. No. 111-5, 123 Stat. 115.
                               Higher Than Planned Call Demand Reduced
                         Toll-Free Telephone Access for the 2009 Filing Season




Synopsis
Each year, millions of taxpayers contact the IRS by calling the various toll-free telephone
assistance lines to seek help in understanding tax laws and meeting their tax obligations. During
the 2009 Filing Season, the IRS made available approximately 12,000 assistors to answer the
toll-free telephone lines at 24 call centers located throughout the United States and Puerto Rico.
The IRS experienced increased call demand this filing season because taxpayers called:
    •   To obtain the amount of their prior year Adjusted Gross Income. In Fiscal Year 2009, the
        IRS discontinued the use of U.S. Individual Income Tax Declaration for an IRS e-file
        Online Return (Form 8453-OL) for Tax Year 2008. Now, taxpayers choosing to
        electronically prepare and file their tax returns are required to provide their prior year
        Adjusted Gross Income and use a self-selected, five-digit Personal Identification Number
        as their signature.
    •   To ask economic stimulus payment and Recovery Rebate Credit questions and respond to
        math error notices3 issued by the IRS relating to the Recovery Rebate Credit.
    •   To obtain information on the various tax relief provisions of the American Recovery and
        Reinvestment Act of 2009.
Because of the additional call volume, the IRS did not meet several of its key 2009 Filing Season
toll-free telephone assistance performance measurement goals. The IRS had planned to achieve
an 80.0 percent Level of Service and a 360-second Average Speed of Answer.4 Instead, it
achieved a 64.0 percent Level of Service and a 519-second Average Speed of Answer, indicating
that the ability of taxpayers to access the toll-free telephone assistors was lower and slower than
last filing season’s performance.
The IRS planned to answer 16.5 million calls using assistors and 25.1 million calls using
automation for the 2009 Filing Season. IRS assistors answered more calls than they answered in
the prior filing season and 1.3 million more calls than planned for this filing season. Only
21.3 million calls were answered using automation.
During the 2009 Filing Season, 75.7 million total dialed attempts were made to the IRS toll-free
telephone lines. Through automation and assistors, the IRS answered 35.8 million (47.3 percent)
calls during normal hours of operation. However, 22.4 million calls were not answered during




3
  The IRS created three math error notices for Recovery Rebate Credit math errors. Math error notices are issued to
taxpayers when changes to the tax return during processing result in an overpayment or balance due.
4
  Level of Service is the IRS’ primary measure of providing taxpayers with access to an assistor. Average Speed of
Answer is the average number of seconds taxpayers waited in the queue (on hold) before receiving services.
                                                                                                                  2
                               Higher Than Planned Call Demand Reduced
                         Toll-Free Telephone Access for the 2009 Filing Season



normal hours of operation because the taxpayers hung up, were courtesy disconnected5 by the
IRS, or received a busy signal. IRS officials stated that the 22.4 million calls included calls from
taxpayers who called back and received service, dialed the IRS repeatedly, or hung up for
reasons outside the IRS’ control. The IRS experienced high call demand during the last two
filing seasons. Nevertheless, even when the IRS achieves more than an 80 percent Level of
Service, millions of calls are not answered by IRS assistors.
Currently, the IRS’ main performance measure for the toll-free telephone lines is the Level of
Service. This measure represents the relative success rate of taxpayers who call the 20 Customer
Account Services toll-free telephone lines seeking assistance from an assistor. It measures the
success rate of access to the telephone system based on the number of calls answered by IRS
assistors, but it does not completely reflect total taxpayer demand and the taxpayer experience
while seeking assistance from the IRS when calling its toll-free telephone lines.

Recommendation
We recommended that the Commissioner, Wage and Investment Division, develop a
Government Performance and Results Act of 19936 quantity outcome measure that takes into
account total taxpayer demand as well as the taxpayer experience (e.g., the Average Speed of
Answer) when calling the IRS’ toll-free telephone lines.

Response
The IRS disagreed with the recommendation. The IRS stated that it already has a suite of
measures that are utilized to assess the customer experience. It believes that any new quantity
outcome measure would not incorporate the Treasury Inspector General for Tax
Administration’s characterization of total call demand. However, the IRS has undertaken a
review of its Government Performance and Results Act measures and will take into
consideration the concerns outlined in our report. Management’s complete response to the draft
report is included as Appendix V.

Office of Audit Comment
Although the IRS has a suite of measures and reports the Level of Service externally to taxpayers
and other stakeholders, the Average Speed of Answer is not reported as part of its Government
Performance and Results Act measures. However, of most importance to taxpayers and other
stakeholders is whether a taxpayer is able to speak with an assistor when desired and how


5
  The IRS issues courtesy disconnects to taxpayers when calls entering the queue backup beyond a defined
threshold. The callers receive a recorded announcement to call back at a later time.
6
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                             3
                                Higher Than Planned Call Demand Reduced
                          Toll-Free Telephone Access for the 2009 Filing Season



quickly a taxpayer speaks with an assistor. Externally reporting measures relating to these issues
would provide those evaluating the IRS’ telephone operations for performance and budget
purposes with valuable information.
The IRS also indicated that total call demand should not include disconnects at the discretion of
the caller or callers who actually received service through automation or from non-Accounts
Management product lines. Because there is a sizable difference between the number of call
attempts and calls that are actually answered by the IRS, a more accurate measure of telephone
access using total call demand is needed.
In its response, the IRS also questioned how we characterized certain calls as “unanswered.”
The report states the IRS did not answer 22.4 million calls during the IRS’ normal hours of
operations. The IRS responded that included in that figure are 10.8 million callers who chose to
hang up before they reached an assistor and another 5.3 million callers who chose to disconnect
while waiting for an assistor. The IRS states these callers are beyond its control and represent
calls the IRS never had the opportunity to service.
Our report discloses that primary and secondary abandons7 are included in the 22.4 million calls
that were unanswered. The IRS could not provide data on how many of these calls were
abandoned because the menu was difficult to navigate or the IRS took too long to answer the
call. We believe these reasons are within the IRS’ control.
The IRS asserts that Figure 5 in the report is incorrect because it shows calls received outside
hours of operation and those transferred to other product lines as unanswered. Figure 5 totals
3 categories of calls to arrive at Total Calls of 75.7 million: Total Calls Answered
(35.8 million), After Hours and Transfer to Other Lines (17.5 million), and Calls Not Answered
During Normal Hours of Operation (22.4 million).
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




7
 A primary abandon may occur, for example, when a taxpayer 1) realizes he or she input the wrong telephone
number and immediately disconnects, 2) disconnects before completing an automated routing script, or 3) chooses a
menu option to use an automated service but disconnects before completing the service. A secondary abandon
occurs when a caller gains access into the queue and then hangs up while waiting in the queue for the next available
assistor.
                                                                                                                   4
                                   Higher Than Planned Call Demand Reduced
                             Toll-Free Telephone Access for the 2009 Filing Season




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Taxpayer Access to the Toll-Free Telephone Assistors Was
          Lower Than Planned Due to Additional Call Demand.................................Page 4
          The Level of Service Performance Measure Should More
          Clearly Reflect Call Demand and the Taxpayer Experience ........................Page 10
                    Recommendation 1:........................................................Page 12

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 14
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Joint Operations Center........................................................Page 17
          Appendix V – Management’s Response to the Draft Report .......................Page 19
            Higher Than Planned Call Demand Reduced
      Toll-Free Telephone Access for the 2009 Filing Season




                 Abbreviations

AGI        Adjusted Gross Income
IRS        Internal Revenue Service
VCR        Variable Call Routing
                                Higher Than Planned Call Demand Reduced
                          Toll-Free Telephone Access for the 2009 Filing Season




                                             Background

Each year, millions of taxpayers contact the Internal Revenue Service (IRS) by calling the
various toll-free telephone assistance lines to seek help in understanding tax laws and meeting
their tax obligations. Taxpayers called the IRS toll-free telephone assistance lines approximately
75.7 million times1 during the 2009 Filing Season.2 Of these calls, about 29.4 million were made
to the toll-free telephone number that taxpayers call to ask account or tax law questions
(1-800-829-1040). In addition, about 6.2 million calls were made to the IRS automated TeleTax
system that provides recorded tax law and tax refund information. Figure 1 shows the number of
calls made to the toll-free telephone assistance lines, including about 17.7 million calls answered
by customer service representatives (assistors).3
                                 Figure 1: Calls Handled by the IRS
                                                                                           Received
               After
                                                                                       Automated Service
         Hours/Transfer Out
                                                                                          18.1 million
            17.5 million


                                              23.1 %              23.9 %




                                             29.7 %                  23.4 %
             Hung up or Was
              Disconnected                                                                Reached an
             Before Receiving                                                              Assistor
                 Service                                                                  17.7 million
               22.4 million

      Source: IRS Enterprise Telephone Data Warehouse.


1
  These calls were made to the suite of 20 telephone lines the IRS refers to as “Customer Account Services
Toll-Free” and included calls made to the TeleTax system. Unless otherwise specified, all references made in this
report to the toll-free telephone system performance data are for Customer Account Services Toll-Free telephone
assistance lines from January 1 through April 18, 2009, and comparable dates in prior years.
2
  The filing season is the period from January through mid-April of each year when most individual tax returns are
filed. All references to the 2009 Filing Season made in this report, unless otherwise specified, are for the period
from January 1 through April 18, 2009.
3
  Due to rounding, the numbers may not always equal the sum of the totals or 100 percent.
                                                                                                             Page 1
                                Higher Than Planned Call Demand Reduced
                          Toll-Free Telephone Access for the 2009 Filing Season



The toll-free telephone assistance lines are further subdivided into categories called
“applications,” each of which is staffed with a group of assistors who have received specialized
training to assist taxpayers with specific tax issues. Assistors answer taxpayer questions
involving tax law and tax account conditions such as refunds, balance-due billing activity, and
changes to the amount of tax owed. For example, if an individual taxpayer calls to find out
where to mail a tax return, the call would be routed to an assistor who has been trained to handle
IRS procedural issues for individual taxpayers. If a business taxpayer calls to find out the taxes
due on a business account, the call would be routed to an assistor who handles balance-due
questions for business taxpayers. Figure 2 shows the number of calls answered, by product line,
during the 2009 Filing Season.
                Figure 2: Toll-Free Telephone Service Product Lines and
                Number of Calls Answered During the 2009 Filing Season4

                                              Rebate Hotline,                    Remaining 12
           Refund Hotline,                                                     Customer Account
             701,658, 4%                       812,535, 5%
                                                                                    Services
                                                                               Toll-Free Product
       Small Business/                                                               Lines,
        Self-Employed                                                             977,351, 6%
      Individual Master
              File
          Customer
         Response,
         927,035, 5%                                                                    Individual Income
                                                                                          Tax Services,
                                                                                          8,556,971, 48%
    Refund Call Back,
     2,129,312, 12%




         Business Master           Wage & Investment
          File Customer             Individual Master
            Response,                 File Customer                            Business and
           544,896, 3%                  Response,                              Specialty Tax
                                      1,843,163, 10%                           Services Line,
                                                                               1,218,563, 7%
Source: IRS Enterprise Telephone Data Warehouse.

During the 2009 Filing Season, the IRS made available approximately 12,000 assistors to answer
the toll-free telephone lines at 24 call centers located throughout the United States and
Puerto Rico. The Director, Customer Account Services, Wage and Investment Division,
manages tax law and account telephone calls through the Joint Operations Center. Appendix IV


4
 The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes. The Individual Master
File is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                         Page 2
                               Higher Than Planned Call Demand Reduced
                         Toll-Free Telephone Access for the 2009 Filing Season



explains the role of the Joint Operations Center and how telephone calls are routed to automated
services or an assistor.
The IRS has encountered numerous issues over the years that have affected access to its toll-free
telephone services, such as natural disasters and the late passage of Congressional legislation. In
addition, the Economic Stimulus Act of 2008,5 which passed in February 2008, affected toll-free
telephone access and performance measures for both the 2008 Filing Season and Fiscal
Year 2008. Taxpayers made about 193.3 million call attempts6 to the IRS toll-free telephone
assistance lines during Fiscal Year 2008. The IRS received approximately 132.8 million call
attempts after the 2008 Filing Season.
This review was performed at the Joint Operations Center in Atlanta, Georgia, during the period
January through May 2009. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. The scope of this
audit did not include an evaluation of the quality of toll-free telephone services. The
performance data presented were provided by IRS management information systems. We did
not verify the accuracy of these data because of resource limitations. Detailed information on
our audit objective, scope, and methodology is presented in Appendix I. Major contributors to
the report are listed in Appendix II.




5
 Pub. L. No. 110-185, 122 Stat. 613.
6
 These calls were made to the toll-free telephone lines the IRS refers to as “Customer Account Services”
for the period October 1, 2007, through September 30, 2008.
                                                                                                           Page 3
                               Higher Than Planned Call Demand Reduced
                         Toll-Free Telephone Access for the 2009 Filing Season




                                      Results of Review

Taxpayer Access to the Toll-Free Telephone Assistors Was Lower
Than Planned Due to Additional Call Demand
Because of the additional call volume associated with recent regulations and legislation, the IRS
did not meet several of its key 2009 Filing Season toll-free telephone assistance performance
measurement goals. For the 2009 Filing Season, the IRS experienced increased demand because
taxpayers called:
    •   To obtain the amount of their prior year Adjusted Gross Income (AGI). In Fiscal
        Year 2009, the IRS discontinued the use of U.S. Individual Income Tax Declaration for
        an IRS e-file Online Return (Form 8453-OL) for Tax Year 2008. Now, taxpayers
        choosing to electronically prepare and file their tax returns are required to provide their
        prior year AGI and use a self-selected five-digit Personal Identification Number as their
        signature.
    •   To ask economic stimulus payment and Recovery Rebate Credit questions and respond to
        math error notices7 issued by the IRS relating to the Recovery Rebate Credit. The
        Recovery Rebate Credit is available to eligible taxpayers who did not receive an
        economic stimulus payment based upon the Economic Stimulus Act of 20088 or who are
        entitled to an additional payment. In order to determine eligibility for an additional
        payment, taxpayers needed to know the amount of the economic stimulus payment
        received in 2008. Taxpayers called because they did not retain documentation or did not
        remember the amount of their economic stimulus payment. In addition, taxpayers called
        after receiving IRS math error notices relating to the Recovery Rebate Credit. The IRS
        issued math error notices because taxpayers either claimed a Recovery Rebate Credit
        amount that did not match the amount calculated by the IRS or chose to have the IRS
        compute the amount of the Recovery Rebate Credit.
    •   To obtain information on the various tax relief provisions of the American Recovery and
        Reinvestment Act of 2009.9




7
  The IRS created three math error notices for Recovery Rebate Credit math errors. Math error notices are issued to
taxpayers when changes to the tax return during processing result in an overpayment or balance due.
8
  Pub. L. No. 110-185, 122 Stat. 613.
9
  Pub. L. No. 111-5, 123 Stat. 115.
                                                                                                            Page 4
                               Higher Than Planned Call Demand Reduced
                         Toll-Free Telephone Access for the 2009 Filing Season



The IRS had planned to achieve an 80.0 percent Customer Service Representative Level of
Service (Level of Service) and a 360-second Average Speed of Answer.10 Instead, it achieved a
64.0 percent Level of Service and a 519-second Average Speed of Answer, indicating that the
ability of taxpayers to access the toll-free telephone assistors was lower and slower than last
filing season’s performance.
For the 2009 Filing Season, the IRS planned to answer 16.5 million calls using assistors and
25.1 million calls using automation. IRS assistors answered more calls than they answered in the
prior filing season and 1.3 million more calls than planned for this filing season. Only
21.3 million calls were answered using automation.11 Also, on several applications, the IRS
provided callers with the estimated wait times. This allows taxpayers to choose whether they
want to wait to speak to an assistor or disconnect and call back.
As a result of the additional call demand, the IRS trained 400 additional assistors to respond to
prior year AGI calls. It also freed up 50 more assistors to handle more complex account calls by
routing more calls from taxpayers requesting forms to a nonprofit organization that provides
employment to people with disabilities. This provided a total of 12,000 assistors to answer
taxpayer calls. Figure 3 shows the actual performance measures for the last four filing seasons.
                       Figure 3: Comparison of Performance Measures
                              for the 2006 - 2009 Filing Seasons

              Performance Measures                2006           2007          2008          2009

              Level of Service                   82.0%          82.5%         77.4%         64.0%

              Average Speed of
                                                  213            249            347           519
              Answer (seconds)
              Assistor Calls Answered             14.8           14.7          16.1          17.7
              (millions)
             Source: IRS Enterprise Telephone Data Warehouse.

The AGI call demand was significantly higher than planned
The IRS initially planned for 800,000 prior year AGI calls during the 2009 Filing Season. In
September 2008, the tax preparation software industry expressed concern about taxpayers’
ability to obtain the prior year AGI and Personal Identification Numbers using the IRS’ toll-free
telephone services.


10
   Level of Service is the IRS’ primary measure of providing taxpayers with access to an assistor. Average Speed of
Answer is the average number of seconds taxpayers waited in the queue (on hold) before receiving services.
11
   Automated Calls Answered consists of 18.1 million automated calls answered during normal hours of operation,
and 3.2 million automated calls answered after hours of operation.
                                                                                                           Page 5
                                 Higher Than Planned Call Demand Reduced
                           Toll-Free Telephone Access for the 2009 Filing Season



In late February 2009, as a result of the increased AGI call demand, the IRS adjusted its filing
season plan to accommodate approximately 2.0 million AGI calls. Nevertheless, by the end of
the filing season, the IRS had received 4.8 million calls from taxpayers requesting the amounts
of their Tax Year 2007 AGI.
On January 5, 2009, the IRS added an AGI prompt that would route taxpayers who were calling
to request the amount of the prior year’s AGI directly to the appropriate application. In addition,
on March 2, 2009, the IRS implemented and staffed a new application for the prior year AGI
calls. Prior to the implementation of the new AGI application, the individual taxpayer account
application12 absorbed the AGI call demand. The IRS did not quantify the number of calls
absorbed by other applications.
As of April 18, 2009, the individual taxpayer account application had exceeded planned services
by 17.4 percent. The actual services provided were 8.9 million compared to the planned services
of 7.6 million. In addition, 3.9 million callers were courtesy disconnected13 from the individual
taxpayer account application. For those taxpayers who reached an assistor, the Average Speed of
Answer was 605 seconds or 10.1 minutes.
Many taxpayers were confused by the Recovery Rebate Credit, which increased
call demand
The Economic Stimulus Act of 2008 allowed for a Recovery Rebate Credit for taxpayers who
did not receive the full rebate or only received a partial rebate payment by December 31, 2008.
For the 2009 Filing Season, the IRS alerted assistors that taxpayers may be calling with questions
about the rebates or the Recovery Rebate Credit and the related math error notices.
The IRS revised its strategic toll-free telephone plan in February 2009 for the increase in call
demand related to the math error notices. It also provided an exclusive toll-free telephone
number so taxpayers could call about the notices. When callers dialed the number, they heard an
automated message explaining why they received the notice and the possible outcomes of the
refund. Once the message was complete, callers had the option to route to an assistor by pushing
the three-digit extension number provided on the notice.
The National Taxpayer Advocate toll-free telephone line performance was also
affected by economic stimulus payment call demand
The National Taxpayer Advocate leads the Taxpayer Advocate Service, an independent
organization within the IRS that helps taxpayers resolve problems with the IRS and recommends


12
   The toll-free telephone assistance lines are subdivided into categories called applications, each of which is staffed
with a group of assistors who have received specialized training to assist taxpayers with specific tax issues.
Application 20 is the individual taxpayer account application which handles individual taxpayer account data.
13
   The IRS issues courtesy disconnects to taxpayers when calls entering the queue backup beyond a defined
threshold. The callers receive a recorded announcement to call back at a later time.
                                                                                                                Page 6
                                  Higher Than Planned Call Demand Reduced
                            Toll-Free Telephone Access for the 2009 Filing Season



solutions to prevent problems. The National Taxpayer Advocate provides taxpayers a toll-free
telephone line to call when they have problems with the IRS.
Assistors on the National Taxpayer Advocate telephone line answered 9 percent more calls
during the 2009 Filing Season than in the 2008 Filing Season. The National Taxpayer Advocate
toll-free telephone line’s Level of Service achieved for the 2009 Filing Season was 75.0 percent,
7.6 percent lower than the 81.1 percent in the 2008 Filing Season. The Average Speed of
Answer for the 2009 Filing Season was 243 seconds, an increase of 113 percent over the
2008 Filing Season Average Speed of Answer of 114 seconds. For the 2009 Filing Season,
taxpayers calling the National Taxpayer Advocate telephone line spent 53.7 percent of their total
contact time in either a hold or wait status, an increase of 17.0 percent over the 2008 Filing
Season.
Although primary abandons for the National Taxpayer Advocate toll-free telephone lines
decreased by 13.4 percent during the 2009 Filing Season, secondary abandons increased by
67.0 percent. A primary abandon may occur, for example, when a taxpayer 1) realizes he or she
input the wrong telephone number and immediately disconnects, 2) disconnects before
completing an automated routing script, or 3) chooses a menu option to use an automated service
but disconnects before completing the service. A secondary abandon occurs when a caller gains
access into the queue and then hangs up while waiting in the queue for the next available
assistor. IRS officials stated that while access to assistors on the National Taxpayer Advocate
telephone line was lower this filing season, it was generally higher than the access on the
toll-free telephone lines.
Late legislation prompted the IRS to implement new automated scripts
The American Recovery and Reinvestment Act of 2009 was enacted February 17, 2009, to
provide for economic growth to the United States economy, help create jobs, improve energy
independence, provide tax relief, expand educational opportunities, and other related purposes.
Soon after it was enacted, taxpayers began calling the IRS to inquire about its provisions.
On March 2, 2009, the IRS implemented several automated messages to inform taxpayers about
the American Recovery and Reinvestment Act of 2009. The IRS provided callers who chose to
listen to the American Recovery and Reinvestment Act of 2009 messages an option to return to
the main toll-free telephone line.14 By providing automated messages and providing the option
of routing back to the main menu to speak to an assistor, the IRS was able to provide taxpayers
with needed information, reduce the impact on assistor demand, and provide an overall better
customer experience.




14
     The main toll-free telephone number that taxpayers call to ask account or tax law questions (1-800-829-1040).
                                                                                                              Page 7
                                Higher Than Planned Call Demand Reduced
                          Toll-Free Telephone Access for the 2009 Filing Season



The IRS blocked more calls and more taxpayers abandoned calls (disconnected)
in the 2009 Filing Season
The number of blocked calls increased more than three times from the 2008 Filing Season. As of
April 18, 2009, 5.0 million calls were blocked compared to 1.2 million calls blocked during the
2008 Filing Season. Primary abandons and secondary abandons increased 37.0 percent and
40.0 percent, respectively, from the 2008 Filing Season. Figure 4 shows a comparison of various
components (workload indicators) the IRS uses to manage the Level of Service.
                        Figure 4: Comparison of Toll-Free Telephone
                       Performance Measures and Workload Indicators
                             for the 2006 – 2009 Filing Seasons

                                                                              Filing Season
               Components15                                           2006    2007    2008     2009

               Average Speed of Answer (seconds)                       213      249     347     519

               Blocked Calls (millions)

                  Busy Signals                                          0.2     0.4      0.4     0.5

                  Courtesy Disconnects                                  1.2     0.4      0.8     4.5

               Total Blocked Calls                                      1.4     0.8      1.2     5.0

               Primary Abandons (millions)                              6.3     6.7      7.9   10.8

               Secondary Abandons (millions)                            2.0     2.5      3.8     5.3

               TeleTax16 Abandons (millions)                            1.1     1.2      1.0     1.4
               Total Calls Not Answered During Normal
               Hours of Operation (millions)                           10.7    11.2    13.8    22.4
               Source: IRS Enterprise Telephone Data Warehouse.

During the 2009 Filing Season, 75.7 million total dialed attempts were made to the IRS toll-free
telephone lines. Through automation and assistors, the IRS answered 35.8 million (47.3 percent)
calls during normal hours of operation. Nevertheless, 22.4 million calls were not answered
during normal hours of operation because taxpayers hung up, were courtesy disconnected by the

15
   Due to rounding, the numbers may not always equal the sum of the totals or 100 percent.
16
   Taxpayers may call 1-800-829-4477 to hear prerecorded messages covering various tax topics or to check on the
status of their refund. TeleTax topics, which range from “IRS assistance” to “who must file,” are listed on pages 84
and 85 of the U.S. Individual Income Tax (Form 1040) Instruction booklet, available at IRS.gov. TeleTax abandons
also include TeleTax overflows.
                                                                                                            Page 8
                                  Higher Than Planned Call Demand Reduced
                            Toll-Free Telephone Access for the 2009 Filing Season



IRS, or received a busy signal. IRS officials stated that the 22.4 million included calls from
taxpayers who called back and received service, dialed the IRS repeatedly, or hung up for
reasons outside the IRS’ control.
The IRS experienced high call demand during the last two filing seasons. Nonetheless, even
when the IRS achieves more than an 80 percent Level of Service, millions of callers are still
unable to gain access to the IRS toll-free telephone system. During the 2007 Filing Season for
example, the IRS achieved an 82.5 percent Level of Service, yet it only answered 57.1 percent of
the 52.3 million total call attempts. Figure 5 shows a comparison of the last four filing seasons
and how many calls went unanswered.
                            Figure 5: Comparison of Toll-Free Telephone
                                  Answered and Unanswered Calls
                                 for the 2006 – 2009 Filing Seasons

                                                                          Filing Season

                   Component                                     2006      2007     2008       2009

                   Level of Service                              82.0%    82.5%     77.4%      64.0%

                   Calls Answered (millions)

                      Assistor Calls Answered                     14.8     14.7      16.1      17.7

                      Automated Calls Answered                    16.0     15.1      16.5      18.1

                   Total Calls Answered                           30.8     29.8      32.6      35.8

                   After Hours and Transfer to Other Lines        10.6     11.3      13.3      17.5
                   Calls Not Answered During
                   Normal Hours of Operation                      10.7     11.2      13.8      22.4

                   Total Calls17                                  52.0     52.3      59.7      75.7
                  Source: IRS Enterprise Telephone Data Warehouse.

Assistors are not solely dedicated to answering the toll-free telephone lines. They also work and
respond to taxpayer correspondence, mainly entering adjustments to taxpayer accounts into IRS
computer systems. The IRS attempts to strike a balance between having assistors answer
telephones and work adjustment inventories. As telephone volumes build, resources are shifted
to the telephones. As the telephone volumes decline, assistors are released from answering calls
and work adjustment inventories. Both the telephones and adjustments are opportunities for the


17
     Due to rounding, the numbers may not always equal the sum of the totals or 100 percent.
                                                                                                       Page 9
                               Higher Than Planned Call Demand Reduced
                         Toll-Free Telephone Access for the 2009 Filing Season



IRS to assist taxpayers in complying with their tax obligations. If the IRS does not timely
respond to certain types of correspondence such as amended tax returns that must be processed
within 45 days of receipt, it can result in the IRS paying additional interest payments to
taxpayers.
IRS officials stated that available time, budget, and space considerations limit how many
assistors it can hire to answer telephones or work correspondence and adjustment inventories.
Call demands are higher during the filing season and more assistors are needed during that time.
Though it may be possible to hire more assistors, it is not always feasible or cost effective to
expand facilities or telephone lines which may sit idle during much of the year.
Based on available funding, the IRS determines each
year the specific Level of Service (usually between
80 percent and 85 percent) it can deliver while still being    The National Taxpayer Advocate
able to also work correspondence and adjustment               has continued to express concern
                                                                about how customer service is
inventories. The National Taxpayer Advocate continues         affected when the same assistors
to express concern about how customer service is                   work two critical areas.
affected when assistors work two critical functions,
toll-free telephone operations and adjustment
inventories. The IRS hired a consulting firm to assist with developing a model to facilitate the
best balance of assistor resources working paper adjustment inventories and answering the
telephones. A draft model is under review and the final results are due in the summer of 2009.
We are making no recommendations concerning this issue, but will review the results of the
model and any potential workload changes as a result of the review.
The Level of Service Performance Measure Should More Clearly
Reflect Call Demand and the Taxpayer Experience
Taxpayers are most interested in whether they can reach an IRS assistor when desired and how
quickly they are able to speak with an assistor. Level of Service, however, only reflects the
relative success rate of taxpayers who call the 20 Customer Account Services toll-free telephone
lines seeking assistance from an assistor. It measures the success rate of access to the telephone
system using the number of calls answered by IRS assistors. The current measure can be
managed by increasing or decreasing the number of blocked calls, thus allowing more or fewer
callers into the queue.
The Government Performance and Results Act of 199318 requires Federal agencies to establish
standards for measuring their performance and effectiveness. The Government Performance and
Results Act IRS toll-free telephone service measures are Level of Service, Customer Contacts
Resolved per Staff Year, Customer Accuracy Accounts, and Customer Accuracy Tax Law.

18
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                             Page 10
                                 Higher Than Planned Call Demand Reduced
                           Toll-Free Telephone Access for the 2009 Filing Season



We previously reported that the Level of Service only monitors access to the toll-free telephone
system and the IRS should do more to assess the achievement of taxpayer expectations and
demands for toll-free telephone service.19 We recommended that the IRS “…develop
Government Performance and Results Act quantity indicators for their toll-free telephone service
that provide an accurate representation of the taxpayer experience and include the cost of
providing that experience.” A review of several government and private sector organization’s
toll-free telephone performance measures showed that these organizations included measures
that gauge how long it took the caller to reach an assistor, as well as a measure of the caller’s
ability to gain access to the telephone system.
                                     The IRS has stated that the Level of Service measures the
     The formula to calculate the    level it plans to answer anticipated “call demand” for
     Level of Service is:
                                     assistors in a given time period. It measures the success rate
  Assistor Calls Answered + VCR      for taxpayers who gain access to the system and are placed
   Calls Answered + Informational    in the IRS queue. Components of Level of Service include
             Messages                number of assistor calls answered, Variable Call Routing
  Assistor Calls Answered + VCR      (VCR) Calls Answered,20 and Informational Messages.
   Calls Answered + Informational    Other factors include courtesy disconnects, secondary
     Messages + VCR Busies +
       Courtesy Disconnects +        abandons, and calculated busy signals.21 IRS officials stated
  Emergency Closed + Secondary       they do not include primary abandons in the formula used to
    Abandons + Calculated Busy       calculate Level of Service because they do not believe the
              Signals                IRS has control over these abandoned calls; taxpayers hang
                                     up for reasons outside the IRS’ control. However, we
believe some of these abandons may be because of the difficulty in navigating the menus. The
IRS is currently working on this issue.
The IRS’ Level of Service does not factor in total taxpayer demand, the cost of providing
telephone service, the time it takes taxpayers to talk to an assistor, or the level of resources the
IRS is able to devote to telephone service. IRS officials stated that no toll-free contact centers
include total call demand in their measures.
The IRS has also expressed concern about using a time measure such as Average Speed of
Answer as a key performance measure because it can be controlled to a certain extent by
courtesy disconnecting callers. Notwithstanding the IRS’s concern about including such a


19
   Better GPRA Quantity Indicators Are Needed for Toll-Free Telephone Service (Reference Number 2001-30-131,
dated August 14, 2001).
20
   VCR Calls Answered was used when callers were offered only automation and no route-out option was provided
due to high volumes of calls in the queue. Callers who successfully completed automation were included in this
category.
21
   When a caller receives a busy signal, the IRS does not know if the caller’s intent is to speak with an assistor or use
automation. The IRS allocates the busy signals on a proportional basis between automation and assistor calls and
uses the portion allocated to assistor calls for the Level of Service calculation.
                                                                                                               Page 11
                           Higher Than Planned Call Demand Reduced
                     Toll-Free Telephone Access for the 2009 Filing Season



measure, the number one area of dissatisfaction for the taxpayers who called IRS toll-free
telephone lines and participated in the IRS’ quarterly 2009 Customer Satisfaction survey was
“Time to Get Through to the IRS.” The third area of dissatisfaction was “Time to Get to Right
Person.” The firm conducting the survey recommended that the IRS focus improvement efforts
on these issues.
The IRS should develop a measure that takes into account IRS resources and taxpayer demand
for telephone service as a toll-free telephone system reported Government Performance and
Results Act quantity outcome measure. By doing so, the measure would fairly present taxpayer
demand and experience when calling the IRS. The IRS hired a consulting firm to assess its
current performance measures and how they relate to customer experience. The final results are
due in the summer of 2009.
Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should develop a
Government Performance and Results Act quantity outcome measure that takes into account total
taxpayer demand as well as the taxpayer experience (e.g., the Average Speed of Answer) when
calling the IRS’ toll-free telephone lines.
       Management’s Response: The IRS disagreed with this recommendation. The IRS
       stated that it already has a suite of measures that are utilized to assess the customer
       experience. It stated that any new quantity outcome measure would not incorporate the
       Treasury Inspector General for Tax Administration’s characterization of total call
       demand. However, the IRS has undertaken a review of its Government Performance and
       Results Act measures and will take into consideration the concerns outlined in our report
       Office of Audit Comment: Two of the IRS’ most important telephone assistance
       measures are whether a taxpayer is able to speak with an assistor when desired and how
       quickly a taxpayer speaks with an assistor. The IRS stated in its response that its suite of
       measures includes Average Speed of Answer. However, the IRS does not include this
       measure in its Government Performance and Results Act reporting. Doing so would
       address two taxpayer concerns regarding IRS telephone assistance and would provide
       those evaluating the IRS’ telephone operations for performance and budget purposes with
       valuable information.
       The IRS further indicated that total call demand should not include disconnects at the
       discretion of the caller or callers who actually received service through automation or
       from non-Accounts Management product lines. Because there is a sizable difference
       between the number of call attempts and calls that are actually answered by the IRS, a
       more accurate measure of telephone access using total call demand is needed.
       In its response, the IRS also questioned how we characterized certain calls as
       “unanswered.” The report states the IRS did not answer 22.4 million calls during the

                                                                                           Page 12
                    Higher Than Planned Call Demand Reduced
              Toll-Free Telephone Access for the 2009 Filing Season



IRS’ normal hours of operations. The IRS responded that included in that figure are
10.8 million callers who chose to hang up before they reached an assistor and another
5.3 million callers who chose to disconnect while waiting for an assistor. The IRS states
that these callers are beyond its control and represent calls the IRS never had the
opportunity to service.
Our report discloses that primary and secondary abandons are included in the
22.4 million calls that were unanswered. The IRS could not provide data on how many
of these calls were abandoned because the menu was difficult to navigate or the IRS took
too long to answer the call. We believe these reasons are within the IRS’ control.
The IRS asserts that Figure 5 in the report is incorrect because it shows calls received
outside of hours of operation and those transferred to other product lines as unanswered.
Figure 5 totals 3 categories of calls to arrive at Total Calls of 75.7 million: Total Calls
Answered (35.8 million), After Hours and Transfer to Other Lines (17.5 million), and
Calls Not Answered During Normal Hours of Operation (22.4 million).




                                                                                    Page 13
                               Higher Than Planned Call Demand Reduced
                         Toll-Free Telephone Access for the 2009 Filing Season



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the customer service toll-free telephone
access during the 2009 Filing Season.1 To accomplish this objective, we:
I.      Evaluated the IRS’ preparation for the toll-free telephone operations for the 2009 Filing
        Season, including the followup of a prior Treasury Inspector General for Tax
        Administration review.2
II.     Determined whether the IRS implemented any new operational processes to improve
        taxpayer access to the toll-free telephone system for the 2009 Filing System.
III.    Determined the process used to monitor call volumes and respond to any unanticipated
        changes in call patterns or problems taxpayers experience accessing the toll-free
        telephone lines.
IV.     Determined whether the 2009 Filing Season performance measures goals and indicator
        targets for the toll-free telephone operations were achieved.
V.      Determined whether the Customer Service Representative Level of Service calculation
        adequately represented the toll-free performance measure of customer service provided.
VI.     Determined whether customer service goals for the National Taxpayer Advocate
        telephone line, particularly the wait and hold times, were achieved.




1
 The filing season is the period from January through mid-April when most individual income tax returns are filed.
2
 Call Volume Associated With the Economic Stimulus Payments Made It Difficult to Reach the Internal Revenue
Service During Fiscal Year 2008 (Reference Number 2009-40-030, dated January 26, 2009).
                                                                                                          Page 14
                          Higher Than Planned Call Demand Reduced
                    Toll-Free Telephone Access for the 2009 Filing Season



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
M. Jean Bell, Lead Auditor
Jackie E. Forbus, Senior Auditor
Patricia A. Jackson, Senior Auditor
Nelva A. Usher, Auditor




                                                                                    Page 15
                          Higher Than Planned Call Demand Reduced
                    Toll-Free Telephone Access for the 2009 Filing Season



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief Financial Officer OS:CFO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Chief, Performance Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                  Page 16
                                 Higher Than Planned Call Demand Reduced
                           Toll-Free Telephone Access for the 2009 Filing Season



                                                                                                   Appendix IV

                                 Joint Operations Center

The Joint Operations Center serves as the central control organization for all of the IRS’ toll-free
telephone call routing. It uses intelligent call management software to control and route calls to
call centers and assistors who have the skills and are available to answer the calls. In addition, it
monitors the call centers for abnormally high queue (wait) times and/or the number of assistors
who are idle or available to answer calls. When this occurs, actions are taken to modify routing
scripts and to balance workload and associated staffing.
The Joint Operations Center has the ability to trace one call from the time it is received to the
time the call is terminated but does not do so because of the large volume of calls received. The
IRS does, however, monitor key segments in the life of a call. For example, the IRS monitors
the call from the time it was answered by a screener to when it was transferred to an assistor or
from the time it was answered by an assistor to the time the taxpayer was transferred or the call
ended. The IRS believes that this provides indications of the type(s) of service the average
taxpayer receives.
Taxpayers who call the IRS can receive automated services or choose to speak to a customer
service representative (assistor). For taxpayers using a touchtone telephone, the automated
services Telephone Routing Interactive System uses recorded information and interactive
applications that provide automated tax refund status information, permit taxpayers to obtain a
payoff amount for an outstanding balance due, or enable taxpayers to set up an installment
agreement to settle a delinquent tax debt. For example, when a taxpayer calls 1-800-829-1040
with a tax law or account question, he or she is provided, in English or Spanish, four touchtone
automated main menu options with secondary options.
1. Requesting information on the new economic stimulus legislation, last year’s rebate, or the
   current Recovery Rebate Credit and any related impact on the caller’s Federal taxes. This
   option transfers the caller to the economic stimulus information line at 1-866-234-29421 to a
   second automated menu that provides information regarding any economic stimulus or rebate
   legislation and the impact to the caller’s Federal taxes. The caller can choose from the
   following options: a) inquiry about the recent economic stimulus legislation known as the




1
  For the 2009 Filing Season, there was also an option for requesting information about the new economic stimulus
legislation, last year’s rebate, or the current Recovery Rebate Credit. This option transferred the caller to a recorded
message. The filing season is the period from January through mid-April when most individual income tax returns
are filed.
                                                                                                              Page 17
                                Higher Than Planned Call Demand Reduced
                          Toll-Free Telephone Access for the 2009 Filing Season



    American Recovery and Reinvestment Act of 20092 or b) questions about the previous
    economic stimulus also known as the rebate, including the Recovery Rebate Credit.
2. Preparing or filing individual income tax returns or asking about tax-related rules and
   regulations. This option provides the caller with a second automated menu from which to
   choose the following options: a) ordering tax forms or publications; b) finding addresses to
   mail tax returns or payments to the IRS; c) getting information about a refund, payment, or
   tax account; or d) getting help with other tax questions.
3. Requesting information on a tax refund, payment, personal tax account or getting prior years’
   AGI or prior years’ Personal Identification Number in order to file electronically. This
   option provides the caller with a second automated menu from which to choose the following
   options: a) questions concerning a tax refund; b) questions concerning a personal tax
   account; or c) to obtain the prior years’ AGI or prior years’ Personal Identification Number.
4. Using the Business and Specialty Tax line or obtaining the address for the IRS Internet web
   site.
5. Repeating the above options.
If the caller does not select an option or is calling from a rotary telephone and is unable to select
a touchtone option, the same script is repeated providing voice response options. If the caller
selects an invalid option, he or she is transferred to an IRS employee (screener) who screens and
transfers the call to the appropriate assistor to answer the caller’s question. Assistors are trained
and certified on specific applications3 for each current filing season.




2
 Pub. L. No. 110-185, 122 Stat. 613.
3
 The toll-free telephone assistance lines are subdivided into categories called applications, each of which is staffed
with a group of assistors who have received specialized training to help taxpayers with specific tax issues.
                                                                                                              Page 18
            Higher Than Planned Call Demand Reduced
      Toll-Free Telephone Access for the 2009 Filing Season



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 19
      Higher Than Planned Call Demand Reduced
Toll-Free Telephone Access for the 2009 Filing Season




                                                    Page 20
      Higher Than Planned Call Demand Reduced
Toll-Free Telephone Access for the 2009 Filing Season




                                                    Page 21
